Audit of USAID/RCSA’s Contractor Performance
Evaluation Program
Audit Report No. 4-690-05-002-P
December 15, 2004




            PRETORIA, SOUTH AFRICA
December 15, 2004


MEMORANDUM
FOR:          USAID/RCSA Mission Director, Gerald Cashion

FROM:         Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:      Audit of USAID/RCSA’s Contractor Performance Evaluation
              Program (Report No. 4-690-05-002-P)

This memorandum transmits our report on the subject audit. In finalizing this
report, we considered management comments on the draft report and have
included those comments, in their entirety, as Appendix II.

This report has two recommendations. In response to the draft report
USAID/RCSA concurred with Recommendation No. 1, but did not include a
corrective action plan or a target completion date. A management decision can be
reached for Recommendation No. 1 when USAID/RCSA provides a corrective
action plan and a target completion date. Please advise my office within 30 days
of the actions you have planned or taken to implement Recommendation No. 1.
USAID/RCSA concurred with Recommendation No. 2 and included a corrective
action plan and a target completion date. Therefore, we consider that a
management decision has been reached. Please provide the Bureau for
Management, Office of Management Planning and Innovation with evidence of
final action in order to close Recommendation No. 2.

I appreciate the cooperation and courtesy extended to my staff throughout the
audit.




                                                                                   1
[This page intentionally left blank.]




                                        2
Table of   Summary of Results .............................................................................................. 5
Contents   Background…………............................................................................................ 5
           Audit Objective ..................................................................................................... 6
           Audit Finding......................................................................................................... 6
                    RCSA Needs to Ensure that Interim and Final Evaluations are Completed
                    as Required…......….....................................................................................6

           Evaluation of Management Comments…………………………..……………...11

           Appendix I: Scope and Methodology.................................................................. 13
           Appendix II: Management Comments ................................................................ 15




                                                                                                                                      3
[This page intentionally left blank.]




                                        4
Summary of   The Regional Inspector General/Pretoria conducted this audit to determine
Results      whether USAID’s Regional Center for Southern Africa (RCSA) had implemented
             a contractor performance evaluation program as required by USAID policies and
             procedures. (See page 6.)

             The RCSA did not implement a contractor performance evaluation program that
             adhered to USAID policies and procedures. Specifically, RCSA only completed
             about one-third of the required final contractor performance evaluations and just
             over half of the required interim contractor performance evaluations for the
             evaluation periods that were due. In addition, RCSA often combined several
             interim evaluation periods into one single evaluation—a procedure that is contrary
             to USAID policy. (See pages 6-10.)

             This report contains two recommendations to improve RCSA’s contractor
             performance evaluation program. (See page 10.)

             In response to the draft report USAID/RCSA concurred with Recommendation No.
             1, but did not include a corrective action plan or a target completion date. A
             management decision can be reached for Recommendation No. 1 when
             USAID/RCSA provides a corrective action plan and target completion date.
             USAID/RCSA concurred with Recommendation No. 2 and included a corrective
             action plan and target completion date. Therefore, we consider that a management
             decision has been reached. (See page 15.)


Background   The Regional Contracting Office of USAID’s Regional Center for Southern Africa
             (RCSA) in Gaborone, Botswana has contracting responsibility for eight missions
             located in Angola, Botswana, Madagascar, Malawi, Mozambique, Namibia,
             Zambia, and Zimbabwe1. To assist these missions in developing contracts and
             agreement award documents and in monitoring contractors, RCSA has three
             Contracting Officers (COs) and five Assistance and Acquisition Specialists. In
             addition, there are Cognizant Technical Officers (CTOs) located at RCSA in
             Botswana, as well as at the other seven missions listed above. COs assign
             contracting responsibilities to the Assistance and Acquisition Specialists, whereas
             CTOs monitor awards and prepare contractor performance evaluations.

             At RCSA the process for conducting contractor performance evaluations begins
             when an Acquisition and Assistance Specialist enters the contractor and contract
             data into the National Institutes of Health’s (NIH) Contractor Performance Review
             System. When an evaluation is due, the Acquisition and Assistance Specialist
             notifies the respective CTO that an evaluation is to be performed. The CTO is
             responsible for preparing the draft contractor evaluation. Once prepared, this

             1
              As of October 2003, RCSA acquired contracting responsibility for USAID missions in Angola
             and Mozambique.


                                                                                                          5
            evaluation is then returned to the Acquisition and Assistance Specialist and is given
            to the CO for review and approval. Once approved by the CO, the evaluation is
            submitted to the contractor who must respond to the evaluation within 30 days. If
            the contractor disagrees with the evaluation, the Mission Director or Deputy will
            make a final determination as to the evaluation’s findings. The evaluation is then
            posted on the NIH’s Contractor Performance Review System for review by those
            with access.

            This audit included both interim and final evaluations for 37 active contracts (of
            which 35 required interim evaluations) and 56 completed contracts, with a total
            value of $273.5 million, for the period October 1, 2000, through August 4, 2004.


Audit       This audit was conducted at RCSA as part of the Regional Inspector
Objective   General/Pretoria’s annual audit plan. The audit was designed to answer the
            following question:

            •   Did USAID’s Regional Center for Southern Africa implement a contractor
                performance evaluation program as required by USAID policies and
                procedures?

            Appendix I contains a discussion of the audit's scope and methodology.


Audit       USAID’s Regional Center for Southern Africa (RCSA) did not implement a
Finding     contractor performance evaluation program as required by USAID policies and
            procedures.

            Specifically, RCSA did not follow USAID policies and procedures with regard to
            conducting interim and final contractor performance evaluations. For example,
            RCSA had not completed all required interim and final evaluations on contracts
            and task orders in excess of $100,000. This finding will be addressed in more
            detail in the following section.

            RCSA Needs to Ensure That Interim and Final
            Evaluations are Completed as Required

            Summary: USAID’s Automated Directives System (ADS) Chapter 302 requires
            annual interim and final evaluations of contractor performance on all contracts
            and task orders in excess of $100,000. RCSA has not ensured the timely
            completion of interim and final contractor performance evaluations. For example,
            RCSA completed only 36 percent of the required final contractor performance
            evaluations and 52 percent of the required interim contractor performance
            evaluations during the period under audit. In addition, when completing these
            evaluations, RCSA combined several interim evaluation periods into a single
            evaluation which is contrary to USAID policy. This occurred because RCSA did



                                                                                               6
not make contractor performance evaluations a priority. There were several other
reasons why contractor performance evaluations had not been conducted
including staff shortages and lack of response by Cognizant Technical Officers
(CTOs). As a result, contractors were not properly evaluated. When this occurs,
the possibility exists that some contractors who performed poorly, and were not
evaluated, may be selected for additional work with USAID. This could lead to
the inefficient use of USAID’s limited resources.

ADS Chapter 302.5.9, Evaluation of Contractor Performance, states that
contracts in excess of $100,000, including individual task orders under indefinite
quantity contracts, must be evaluated at least annually (for contracts exceeding
one year in duration) and upon completion of activities. ADS Chapter 302.5.10
provides that past performance information should be used by source selection
evaluation committees in awarding new contracts. USAID’s Past Performance
Handbook: Contractor Performance Report Cards, a mandatory reference in
ADS 302, provides the procedure for conducting contractor performance
evaluations. It notes that the initial performance assessment is a collaborative
effort between the contracting office and the technical office. Contract
Information Bulletin 97-28, an appendix in the Past Performance Handbook,
notes that an evaluation should be initiated within 30 days after completion of
activities (or in October for active contracts), and completed within 90 days (or in
December for active contracts). Both the October and December time periods
were the result of policy guidance issued by USAID’s Office of Procurement in
May 2002. Each subsequent interim evaluation must be performed before 12
months have elapsed since the previous interim evaluation. When a contract
needs an evaluation, the responsible Contracting Officer (CO) should request that
the CTO develop the evaluation since the CTO is the party most knowledgeable
about contractor performance in the areas of quality, cost control, and timeliness.

RCSA had not completed all required interim and final evaluations on contracts
and task orders in excess of $100,000. Of the 56 expired contracts and task orders
that had a total value of $111.5 million, RCSA should have completed 53 final
contractor performance evaluations2. RCSA completed only 19 (or 36 percent) of
the required final contractor performance evaluations during the period of October
1, 2000, to August 4, 2004. Table 1 compares the number of final contractor
performance evaluations due against the number of evaluations actually
completed.




2
The remaining three contracts had recently expired, so a final evaluation was not yet due.


                                                                                             7
                         Table 1: Number of Required Final Contractor Performance
                         Evaluations by Location Compared to Completions
                             Location of              Number of                 Number of             Number of              Number of Final
                             Mission                    Expired                      Final                 Final                Evaluations
                                                  Contracts/Task               Evaluations           Evaluations                   Overdue
                                                         Orders                       Due             Completed

                             Angola                                  0                         0                     0                    0
                             Botswana                               10                         9                     3                    6
                             Madagascar                             16                        16                     5                   11
                             Malawi                                 12                        12                     5                    7
                             Mozambique                              6                         6                     1                    5
                             Namibia                                 2                         2                     0                    2
                             Zambia                                  8                         7                     5                    2
                             Zimbabwe                                2                         1                     0                    1
 6 finished contracts
and all required
                             Total                                  56                        53                    19                   34
evaluations with one that had been completed at the audit fieldwork dates.
                         A time analysis of final evaluations due found substantial problems related to the
                         lack of timeliness. For instance, of the 34 final evaluations overdue, 18 were
                         overdue by two or more years. Chart 1 illustrates these problems.

                         Chart 1: Results of Time Analysis of Final Evaluations Due



                                                                                                        Total Due
                                                                                                        Completed
                                                                                                        Less than 1 year overdue
                                                                                                        1-2 years overdue
                                                    60
                                                                                                        2 or more years overdue
                                                    50                                   18
                                                    40                                             2 or more years overdue
                                                                                    9
                                                               53                              1-2 years overdue
                                    Number          30
                                                                               7         Less than one year overdue
                                                     20              19
                                                                                   Completed
                                                     10
                                                                             Total Due
                                                      0




                         With regard to interim evaluations, RCSA completed evaluations for only 38 (52
                         percent) of the required 73 evaluation periods for 35 active contracts and task
                         orders that had a total value of $162 million3. Also, RCSA commonly combined
                         several interim periods into a single contractor performance evaluation, a
                         procedure that is contrary to USAID policy. As stated previously, ADS 302.5.9

                         3
                          Two of the active contracts had not been in effect long enough to require interim evaluations.


                                                                                                                                               8
in part requires evaluations to be conducted at least annually. RCSA had
completed 23 interim evaluations which combined a total of 38 required
evaluation periods. Table 2 compares, among other things, the number of interim
evaluations required against the number of evaluation periods covered by RCSA’s
completed interim evaluations.

Table 2: Analysis of Interim Evaluation Periods Due vs. Evaluations
Performed

                Number of         Number of       Number of      Number of Actual
Location of     Active            Interim         Periods        Interim Evaluations
Mission         Contracts/        Evaluation      Covered in     Performed Covering the
                Task Orders       Periods Due     Interim        38 Periods
                Requiring         on the 35       Evaluations
                Interim           Active          Performed
                Evaluations       Contracts

Angola                 2                2               0                    0
Botswana               6               18               9                    4
Madagascar              3               8               3                    3
Malawi                  1*              3              3                    2
Mozambique             10              10               0                    0
Namibia                5               10               7                    4
Zambia                 5               17              11                    7
Zimbabwe                3               5               5                    3
Total                 35*              73              38                   23

*Note: USAID/Malawi also had two additional active contracts that at the time of this audit
did not yet require interim evaluations.

The problems identified with the contractor performance evaluations stem from
RCSA not making contractor performance evaluations a priority. There were
several factors which contributed to the contractor performance evaluation
problems:

   •   staff shortages,

   •   CTOs not submitting initial contractor evaluations in a timely manner,

   •   personnel turnover, and

   •   problems encountered when entering data in the National Institutes of
       Health’s System.

Because most of the required performance evaluations were not completed by
RCSA, contractors’ performances in the eight missions it serves have largely not
been evaluated or recorded. USAID selection committees tasked with choosing
the best bidder for proposed awards will lack useful data on contractors’ past
performances if the contractors have not been subjected to a contractor


                                                                                          9
performance evaluation. As a result, poorly performing contractors could be
selected for additional USAID work, resulting in USAID’s limited resources not
being used efficiently.

There are several measures that RCSA could take to strengthen its ability to
perform contractor performance evaluations. These measures are intended to
correct both the condition and cause of RCSA’s current problems related to
contractor evaluations. However, there is recognition that strict adherence to
completing all overdue evaluations may be of limited benefit, such as evaluations
that are over two years old. Therefore, we are relying on RCSA to determine
which overdue evaluations should be completed.

       Recommendation No. 1: We recommend that USAID’s Regional
       Center for Southern Africa determine which of its overdue contractor
       performance evaluations should be completed, and complete them in
       accordance with USAID policies and procedures.

       Recommendation No. 2: We recommend that USAID’s Regional
       Center for Southern Africa develop and implement a procedure that
       includes a tracking system to help its contracting officers initiate and
       complete all final and interim contractor performance evaluations as
       required.




                                                                             10
Evaluation of   In response to our draft report, USAID/RCSA management concurred with
Management      Recommendation Nos. 1 and 2. For Recommendation No. 1, the Mission
                indicated that it will determine which overdue contractor performance evaluations
Comments
                can be completed and initiate action to complete the evaluations. Consequently,
                we are waiting for the Mission to more fully develop a course of action and an
                estimated completion date to address this recommendation. For Recommendation
                No. 2 a management decision has been reached.




                                                                                                11
[This page intentionally left blank.]




                                        12
                                                                                     Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. The audit was conducted at
              the USAID Regional Center for Southern Africa (RCSA) in Gaborone, Botswana
              from May 10 to May 18 and then from August 2 to August 6, 2004.

              This audit was designed to determine if RCSA had implemented a contractor
              performance evaluation program as required by USAID policies and procedures.
              The audit included contracts and task orders under indefinite quantity contracts for
              amounts greater than $100,000 issued and/or completed from October 1, 2000, to
              August 4, 2004 for eight missions. These missions were located in Angola,
              Botswana, Madagascar, Malawi, Mozambique, Namibia, Zambia, and Zimbabwe.

              In planning and performing the audit, we tested and assessed significant
              management controls related to the RCSA’s initiation, monitoring and completion
              of contractor performance evaluations.          This testing and assessment of
              management controls included a determination of (1) whether any of the required
              evaluations were performed, and (2) whether the evaluations were initiated and
              completed within the timeframes established by USAID. We interviewed RCSA
              officials, including Contracting Officers and Acquisition and Assistance
              Specialists. The types of evidence examined during the audit included—but were
              not limited to—contract files, preaward files, and the National Institutes of
              Health’s (NIH) Contractor Performance Review System electronic files. We
              reviewed negotiation memos, contract solicitations, technical evaluation
              memorandums, and contractor performance evaluations. We also reviewed RCSA’s
              list of completed and active contracts and task orders in excess of $100,000 from
              October 1, 2000 to August 4, 2004. This list included 56 completed contracts and
              task orders valued at $111.5 million and 37 (of which 35 required interim
              evaluations) active contracts and task orders valued at $162 million.

              Because the NIH Contractor Performance Review System did not show several
              important dates for evaluations that had been completed, the scope of this audit was
              limited. As a result, our testing was incomplete; we could not calculate the number
              of days used by RCSA for completing all final or annual interim evaluations within
              the audit scope.

              Methodology

              To gain an understanding of RCSA’s contractor performance evaluation program,
              we held discussions with officials from RCSA and reviewed relevant documents. In
              order to accomplish the audit objective, we developed an audit program and
              performed the following tasks:



                                                                                              13
   •   Reviewed applicable regulations, USAID policy, and guidance related to
       the audit objective.

   •   Gained an understanding of the NIH’s Contractor Performance Review
       System by observing its contents and operations.

   •   Interviewed RCSA’s Contracting Officers and Acquisition and Assistance
       Specialists involved in performing contractor performance evaluations.

   •   Analyzed contract and task order start and end dates. We then determined
       which periods applied and the number of evaluations that should have
       been performed for each contract or task order. This was compared
       against the completed performance evaluations.

   •   Reviewed contractor performance evaluations in the NIH’s Contractor
       Performance Review System.      When available, we reviewed the
       documented key dates.

   •   Conducted time analyses for final contractor performance evaluations
       which had not been completed. Our analyses included a determination of
       the number of days that each final contractor performance evaluation was
       overdue. Our analyses stratified the overdue evaluations into the
       following categories: (1) less than one year overdue, (2) from one to two
       years overdue, (3) and two years or more overdue.

   •   Determined whether contractor performance evaluations were performed
       in accordance with the relevant policy and regulations.

We set a materiality threshold of five percent, meaning that errors that exceed this
percentage were deemed to be significant.




                                                                                 14
                                                                                                 Appendix II


Management                     U. S. Agency For International Development
Comments                           Regional Center For Southern Africa
                                                 Plot No. 14818 Lebatlane Road
                                                         P.O. Box 2427
                                                      Gaborone, Botswana
                                            Tel: +267 392-4449 Fax: +267 392-4404

                                                       December 3, 2004

             MEMORANDUM

             TO:                  Regional Inspector General/Pretoria, Jay Rollins

             FROM:                USAID/RCSA Mission Director, Gerald Cashion /s/

             SUBJECT:             Audit of USAID/RCSA’s Contractor Performance
                                  Evaluation Program (Report No. 4-690-04-XXX-P) dated October 27, 2004


             This memorandum is in response to the subject draft audit report submitted for RCSA review and
             comment. RCSA agrees with the audit recommendations and has elaborated a plan for corrective
             action as described below:

             Recommendation No. 1: We recommend that USAID’s Regional Center for Southern Africa
             determine which of its overdue contractor performance evaluations should be completed, and
             complete them in accordance with USAID policies and procedures.

             RCSA will determine which overdue contractor performance evaluations can be completed and
             initiate action to complete the evaluations.

             Recommendation No. 2: We recommend that USAID’s Regional Center for Southern Africa
             develop and implement a procedure that includes a tracking system to help its contracting
             officers initiate and complete all final and interim contractor performance evaluations as
             required.

             RCSA will utilize the NIH system for tracking Contractor Performance. Although ADS guidance
             suggests that evaluations be performed as near as possible to contract anniversary dates, RCSA will
             follow the more recent guidance issued by M/OAA (see below, RCSA Observation No.2) to execute
             the evaluations during the month of October. This month follows the very busy end-of the-fiscal-
             year period when many awards are customarily made and therefore corresponds very closely with
             contract anniversary dates.

             In addition to using the NIH tracking system, RCSA will maintain active file lists for each country,
             which will include CPR evaluation dates. In addition, RCSA will employ a MAARD tracking
             system which is updated weekly and shared with each Mission. CPR requirements and dates will be
             added to this system to keep Cognizant Technical Officers and bilateral Mission Directors up to date
             on CPR status. RCSA will also work with bilateral Mission Management to help Mission CTOs
             fulfill their CPR duties on a timely basis. Some bilateral missions now provide monthly status
             reports on CPR activity. RCSA will request all bilateral missions to provide this information in their
             monthly procurement status reports.

             RCSA appreciates the thoroughness and professionalism with which RIG/A performed the CPR
             audit and will exploit the audit report as a tool to improve RCSA management efficiency.

             RCSA also wishes to provide RIG/A with some observations that RIG officers may wish to consider
             in the process of finalizing the audit report.




                                                                                                               15
1. Contractor Performance Report Cards: USAID has agreed to use the NIH CPR system. As
cited in the audit report, ADS E302.5.9(h) requires use of the “Past Performance Handbook –
Contractor Performance Report Cards.” RCSA believes that the use of “Contractor Performance
Report Cards” is required only for Contracting Officers without access to NIH. Since RCSA has
access to the NIH tracking system, RCSA contracting officers may not be required to utilize
“Contractor Performance Report Cards.”

2. Contractor Performance Reporting Dates: M/OAA issued revised CPR policy guidance on
May 6, 2002 (see attachment). The guidance established October as the month for annual Contractor
Performance Reporting. The guidance suggested that annual CPRs be completed by December.
RCSA will follow this guidance and conduct interim CPRs during the month of October. Final
CPRs will be conducted at the contract end.

3. Roles and Responsibilities in the Conduct of CPRs: Per ADS E302.5.9, Contracting Officers
are responsible for ensuring that CPRs are completed under the NIH system. However, the CTO
must also fulfill his/her functions in the process. Lack of CTO action can compromise the timely
completion of CPRs. The final audit report might usefully include information on how many CPRs
were not completed in a timely manner because Mission CTOs did not submit the required
information.

4. RCSA Contracting Responsibility: RCSA assumed contracting responsibility for Madagascar
in April 2002 and for Mozambique and Angola in November 2003. The final audit report might
usefully clarify whether CPRs required for Madagascar, Mozambique, and Angola for the period of
2000-2004 were included in the audit findings that evaluate RCSA’s performance.

5. RIG/A Assistance for More Efficient RCSA CPRs: RCSA notes that Tables 1 and 2 of the
draft audit report provide statistics on the number of evaluations completed and due. To assist
RCSA properly conduct timely CPRs, RIG/A might consider annexing support documentation for
the numbers in tables 1 and 2.

Finally, RCSA wishes to note that action has already been initiated to implement RIG/A
recommendations.




                                                                                              16
ATTACHMENT TO RIG AUDIT REPORT OF RCSA CONTRACTOR PERFORMANCE
REPORTING

From: "internet[<TBeans@usaid.gov>]"@usaid.gov
[mailto:"internet[<TBeans@usaid.gov>]"@usaid.gov]
Sent: Monday, May 06, 2002 7:55 PM
To: overseascolist%oplist%aidw@usaid.gov

Subject: Contractor Performance Report's ( CPRs )


To my fellow Contract Professionals:

The Contractor Performance System is vital to each and every Contracting Officer in the Agency.
This system speeds up the solicitation evaluation process by having all performance reports in one
place. If all the reports are in the system, evaluators do not need to prepare cumbersome emails or
make long distance telephone calls to check out voluminous performance data. A large, accurate
data base makes it easier for you all to document decisions on past performance. Each and every
Contracting Office is responsible for the accuracy and success of this system. Given the requirement
to consider past performance in all awards, the systems importance cannot be overstated.

According to the December 2001 report for last Calendar year, the total number of CPRs has
increased steadily each quarter; but it is still only a fraction, perhaps a third, of what should be in the
database. Presently, over 325 individual reports have been initiated but not completed. The average
number of days in a single reporting status is 292 days, meaning they have been effectively
abandoned. It is vitally important that these unfinished reports be completed as soon as possible in
order to capture the data before Contracting Officers start moving to other posts during the summer
months. Additionally, evaluations of many solicitations will be conducted during the remainder of
the fiscal year and this data is very important to that process. If you are overwhelmed with your
workload, you may want to consider hiring a spouse or other short term assistance to help you follow
up on these reports.

It has been noted that approximately 75% of the Contracting Officers have used the system and they
are to be commended. M/OP's goal is to get all of the Contracting Office's on board this year. All
Contracting Offices have a variety of priorities and M/OP is aware that this contract administration
priority is sometimes difficult to fit into the schedule. However, given the importance this reporting
is playing throughout the entire Agency, it must now become a priority if we are to maintain the
effectiveness of the system.

In the past, M/OP has established APRIL as the month to focus on Past Performance Reporting.
Many Contracting Officers have advised me that Spring is not a good time to focus on these reports
since that is when many of the solicitations are in full swing and also when AEFs are required to be
prepared and finalized. Consequently, starting this year, these reports should be initiated in
OCTOBER of each year and completed by no later than the end of December of each year. A
report will be prepared for each Contracting Office in January which will show usage of the system
and completion of the reports ( we are now able to track who is putting information into the system
). Please note that while these are the established dates for concentrating on the reports, it is much
better to initiate these reports shortly after completion of one year of activity. For completed
contracts, they should be initiated promptly. As a result, you are strongly encouraged to work on
these reports, depending on workload, throughout the entire year.

CONGRATULATIONS TO THE FOLLOWING TOP PRODUCERS IN THE CONTRACTOR
PERFORMANCE REPORTING SYSTEM:

M/OP: Marcelle Wijesinghe and Szilvia Illes, Hungary

Honorable Mention for Significant Contributions:

Maria Baltodano, Nicaragua                  Charity Benson, M/OP                  Maria Burgos, Bolivia
Lance Butler, M/OP                          Alisa Dunn, M/OP                      Claudia Enriquez,
Guatemala



                                                                                                       17
Carlitha Jackson, M/OP                  Karin Kolstrom, Botswana             Patrick Mugabo,
Uganda
Sam Nagwere, Uganda                      Martin Napper, Botswana         Michael Nicholas, Hungary
Natalie Thunberg, REDSO/EA

M/OP remains ready and available to assist in training individuals in the use of the system. Page
Kemp (Clark) is USAID's Past Performance Coordinator and Contract Performance System
Organization Administrator. Ken Monsess is responsible for the policy for the Contractor
Performance Reports.

Personal Note: I am painfully aware of the administrative burden associated with getting these
critically important reports done. I would spend considerable time and effort getting the forms filled
out and then send them out to my technical colleagues and wait months to get them back...sometimes
they would never come back at all. It is a frustrating undertaking. However, as you all may know, we
were recently cited by the IG for not reporting these actions in a timely manner and now have a audit
recommendation which I am required to report on. Please help assure that the contractor past
performance process is operating effectively by submitting the completed form as quickly as you
possibly can....All my best....Tim

Timothy T. Beans
Deputy Director
Office of Procurement
Tel: (202)-712-1201
Fax: ( 202)-216-3395
tbeans@usaid.gov




                                                                                                    18
